    NATIONAL CREDIT UNION ADMINISTRATION
              OFFICE OF INSPECTOR GENERAL


           NCUA FINANCIAL STATEMENT AUDITS
                         FOR

                  OPERATING FUND
               SHARE INSURANCE FUND
            CENTRAL LIQUIDITY FACILITY
         COMM. DEVELOPMENT LOAN PROGRAM




              For the year ended December 31, 2001

       Audited Financial Statements               Audit Report Number

            NCUA Operating Fund                       OIG-02-04
  National Credit Union Share Insurance Fund          OIG-02-05
            Central Liquidity Facility                OIG-02-06
Community Development Revolving Loan Program          OIG-02-07



                            March 31, 2002



                        _______________________
                               Frank Thomas
                             Inspector General




                                      1
               NATIONAL CREDIT UNION ADMINISTRATION
               AUDIT OF THE 2001 FINANCIAL STATEMENTS

                                 EXECUTIVE SUMMARY

                           The National Credit Union Administration (NCUA) Office of
PURPOSE AND SCOPE Inspector General contracted with the independent public accounting
  firm of Deloitte & Touche to perform the financial statement audits of the NCUA Operating
  Fund, the Share Insurance Fund, the Central Liquidity Facility, and the Community
  Development Revolving Loan Program, for the year ended December 31, 2001.

  The purpose of the audits is to express an opinion on whether the financial statements are fairly
  presented. The independent firm also reviewed the internal control structure and evaluated
  compliance with laws and regulations, as part of their audit.

  The audits were performed in accordance with generally accepted auditing standards and
  Government Auditing Standards issued by the Comptroller General of the United States.
  The NCUA Office of Inspector General reviewed the independent firm’s workpapers, as part
  of its oversight function.

                                              The Inspector General contracted with Deloitte
FINANCIAL STATEMENT CONTRACT
                                              & Touche in September 2001 to perform the
  financial statement audits mentioned above. The contract was for 2001, with an option for
  2002. The Deputy Inspector General is the contracting officer’s technical representative for this
  contract.

                       Deloitte & Touche expressed unqualified opinions, stating that the financial
AUDIT RESULTS
                       statements present fairly, in all material respects, the financial position of the
  NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the
  Community Development Revolving Loan Program, at December 31, 2001, and the results of
  operations for the year then ended.

  Although Deloitte & Touche does not express an overall opinion of the Funds’ compliance with
  laws and regulations, their testing of compliance did not disclose any significant deviations.

  Deloitte & Touche did not find any matters considered to be material weaknesses in their
  review of the Funds’ internal control structures pertinent to financial reporting. However, during
  the performance of the audit, we developed recommendations related to internal control over
  financial reporting and certain observations and recommendations on other accounting,
  administrative, and operating matters. However, the observations and recommendations section
  of this report was restricted to official use only.




                                                    2
                          AUDIT REPORT FOLLOW-UP


NCUA should respond to this audit report and accompanying recommendations in
accordance with the NCUA Audit Follow-up Instruction (1910.6, May 16, 1995).




                                        3
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

Financial Statements for the Years Ended
December 31, 2001 and 2000, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                   Page

INDEPENDENT AUDITORS’ REPORT ON THE FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2001 AND 2000                    1

FINANCIAL STATEMENTS FOR THE YEARS ENDED DECEMBER 31,
  2001 AND 2000:

   Balance Sheets                                                   2

   Statements of Revenues, Expenses, and Changes in Fund Balance    3

   Statements of Cash Flows                                         4

   Notes to Financial Statements                                   5-8

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS        9




7158 - 11\01
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund as of December 31, 2001 and 2000, and the related statements of revenues, expenses, and changes in
fund balance, and of cash flows for the years then ended. These financial statements are the responsibility of
the National Credit Union Administration Operating Fund’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Operating Fund as of December 31, 2001 and 2000, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 22,
2002, on our tests of the National Credit Union Administration Operating Fund’s compliance with certain
provisions of laws, regulations, contracts, and grants, and our consideration of its internal control over financial
reporting. That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our audit.




February 22, 2002
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


ASSETS                                               2001       2000

  Cash and cash equivalents                        $ 15,880   $ 9,923
  Due from National Credit Union Share
    Insurance Fund (Note 4)                          1,723        938
  Employee advances                                    529        663
  Other accounts receivable                             93        153
  Prepaid expenses                                     265        429
  Fixed assets - net of accumulated depreciation
    and amortization (Note 3)                       38,455     41,197
  Employee residences held for resale                  269         87

TOTAL ASSETS                                       $ 57,214   $ 53,390

LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accounts payable                                 $ 5,395    $ 3,621
  Obligations under capital leases (Note 5)          2,285      3,860
  Accrued wages and benefits                         4,798      4,492
  Accrued annual leave                               7,531      6,668
  Accrued employee travel                              776        767
  Notes payable to National Credit Union
    Share Insurance Fund (Note 4)                   30,335     31,748

              Total liabilities                     51,120     51,156

FUND BALANCE                                         6,094      2,234

TOTAL LIABILITIES AND FUND BALANCE                 $ 57,214   $ 53,390


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


                                                        2001       2000

REVENUES:
  Operating fees                                      $ 46,858   $ 57,752
  Interest                                                 989      1,719
  Other                                                    161        243

              Total revenues                            48,008    59,714

EXPENSES (Note 4):
  Employee wages and benefits                           33,266    47,054
  Travel                                                 4,046     6,951
  Rent, communications, and utilities                    1,226     1,671
  Contracted services                                    1,950     2,744
  Other                                                  3,660     5,360

              Total expenses                            44,148    63,780

EXCESS (DEFICIENCY) OF REVENUES OVER EXPENSES            3,860     (4,066)

FUND BALANCE, BEGINNING OF YEAR                          2,234     6,300

FUND BALANCE, END OF YEAR                             $ 6,094    $ 2,234


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)

                                                                                     2001       2000
CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess (deficiency) of revenues over expenses                                    $ 3,860    $ (4,066)
 Adjustments to reconcile excess (deficiency) of
    revenues over expenses to cash provided by
    operating activities:
    Depreciation and amortization                                                    3,574      3,637
    Loss on disposal of employee residences held for resale                             28          64
    Loss on disposal of fixed assets                                                     9        -
    Miscellaneous allowances                                                             1          (8)
 (Increase) decrease in assets:
    Due from National Credit Union
      Share Insurance Fund                                                            (785)       680
    Employee advances                                                                  134        153
    Other accounts receivable                                                           60        105
    Prepaid expenses                                                                   164       (324)
  (Decrease) increase in liabilities:
    Accounts payable                                                                 1,774       (472)
    Accrued wages and benefits                                                         306        102
    Accrued annual leave                                                               863        808
    Accrued employee travel                                                              9        (61)

              Net cash provided by operating activities                              9,997        618

CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchases of fixed assets and employee residences held for resale                 (1,272)    (1,651)
 Proceeds from sale of employee residences held for resale                             265        810

              Net cash used in investing activities                                 (1,007)      (841)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable                                                        (1,413)    (1,413)
  Principal payments under capital lease obligations                                (1,620)    (1,136)

              Net cash used in financing activities                                 (3,033)    (2,549)

NET INCREASE (DECREASE) IN
  CASH AND CASH EQUIVALENTS                                                          5,957     (2,772)

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                                         9,923     12,695

CASH AND CASH EQUIVALENTS, END OF YEAR                                             $ 15,880   $ 9,923


SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION:
  Interest paid during the years ended December 31, 2001 and 2000
  was $1,695 and $1,933 (thousands), respectively.

SUPPLEMENTAL DISCLOSURE OF NONCASH FINANCING ACTIVITIES:
  Capital lease obligations of $45 and $4,987 (thousands) were incurred when the
  Fund entered into leases for new equipment during the years ended
 December 31, 2001 and 2000, respectively.


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2001 AND 2000


1.    ORGANIZATION AND PURPOSE

      The National Credit Union Administration Operating Fund (the Fund) was created by the Federal Credit
      Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury under
      the management of the National Credit Union Administration (NCUA) Board for the purpose of
      providing administration and service to the Federal Credit Union System.

2.    SIGNIFICANT ACCOUNTING POLICIES

      Cash Equivalents - The Federal Credit Union Act permits the Fund to make investments in United
      States Government securities or securities guaranteed as to both principal and interest by the United
      States Government. Cash equivalents are highly liquid investments with original maturities of three
      months or less. All investments in 2001 and 2000 were cash equivalents and are stated at cost, which
      approximates fair value.

      Depreciation and Amortization - Building, furniture and equipment, equipment under capital leases, and
      leasehold improvements are recorded at cost. Depreciation and amortization are computed by the straight-
      line method over the estimated useful lives of the building, furniture and equipment, and the shorter of the
      estimated useful life or lease term for leasehold improvements. Estimated useful lives are forty years for
      the building and three to ten years for the furniture, equipment, and leasehold improvements.

      Operating Fees - The Fund assesses each federally chartered credit union an annual fee based on the
      credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
      providing administration and service to the Federal Credit Union System. The Fund recognizes this
      operating fee revenue ratably over the year.

      Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
      Revenue Code.

      Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

           Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund
           (NCUSIF), employee advances, other accounts receivable, accounts and notes payable to NCUSIF,
           and other accounts payable are recorded at book values, which approximate the respective fair
           values.

      Use of Estimates - The preparation of financial statements in conformity with accounting principles
      generally accepted in the United States of America requires management to make estimates and
      assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
      and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
      during the reporting period. Actual results could differ from management’s estimates.


-5-
3.    FIXED ASSETS

      Fixed assets are comprised of the following (in thousands):

                                                                                     2001          2000
        Office building and land                                                  $ 42,419      $ 42,383
        Furniture and equipment                                                      9,592        16,588
        Equipment under capital leases                                               5,035         4,987

                      Total                                                         57,046        63,958
        Less: Accumulated depreciation and amortization                            (18,591)      (22,761)

        Fixed assets - net                                                        $ 38,455      $ 41,197

      Accumulated amortization balances for equipment under capital leases as of December 31, 2001 and
      2000 were $2,881,000 and $1,233,000, respectively.

4.    TRANSACTIONS WITH NCUSIF

      Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
      these services based upon an annual allocation factor approved by the NCUA Board derived from a
      study of actual usage. The allocation factors were 66.72% and 50.00% to NCUSIF for 2001 and 2000,
      respectively. The cost of the services allocated to NCUSIF, which totaled approximately $88,508,000
      and $63,780,000 for 2001 and 2000, respectively, is reflected as a reduction of the corresponding
      expenses in the accompanying financial statements.

      In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the purchase of
      a building. Interest costs incurred were approximately $66,000 for 2001 and $76,000 for 2000. The
      outstanding principal balance at December 31, 2001 and 2000, was $1,170,000 and $1,242,000, respectively.

      In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
      note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a new building.
      Interest costs incurred were approximately $1,629,000 and $1,857,000 for 2001 and 2000, respectively.
      The note payable balance at December 31, 2001 and 2000, was approximately $29,165,000 and
      $30,506,000, respectively.

      The above notes require principal repayments as follows (in thousands):

                                                                       Unsecured Secured
                                                                       Term Note Term Note         Total
        2002                                                            $    72    $ 1,341      $ 1,413
        2003                                                                 72      1,341        1,413
        2004                                                                 72      1,341        1,413
        2005                                                                 72      1,341        1,413
        2006                                                                 72      1,341        1,413
        Thereafter                                                          810     22,460       23,270
                                                                        $ 1,170    $ 29,165     $ 30,335




-6-
      The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
      interest rates during 2001 and 2000 were 5.47% and 5.95%, respectively. The interest rates at
      December 31, 2001 and 2000, were 4.56% and 6.05%, respectively.

5.    LEASE COMMITMENTS

      Description of Leasing Agreements - The Fund has entered into a number of lease agreements with
      vendors for the rental of office space as well as the lease of office equipment that includes laptops,
      printers, monitors, and copiers.

      Operating Leases - The Fund leases office space under lease agreements that expire through 2004.
      Office rental charges amounted to approximately $966,000 and $813,000 of which approximately
      $654,500 and $406,500 was reimbursed by NCUSIF for 2001 and 2000, respectively. In addition, the
      Fund leases office equipment under operating leases with lease terms of less than one year.

      Capital Leases - The Fund leases computer equipment under lease agreements that expire through
      2005.

      The future minimum lease payments as of December 31, 2001, are as follows (in thousands):

                                                                    Operating     Capital
                                                                     Leases       Leases

               2002                                                  $ 972       $ 1,856
               2003                                                    439           496
               2004                                                    326            38
               2005                                                     -              4

                    Total                                            $ 1,737       2,394

               Less: Imputed interest                                               (109)

               Present value of net minimum
                 lease payments                                                  $ 2,285

      Based on the allocation factor approved by the NCUA Board for 2001, NCUSIF will reimburse the Fund
      for approximately 66.72% of the future operating lease payments.

6.    RETIREMENT PLAN

      The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
      include the Federal Employees’ Retirement System (FERS). Both plans are defined benefit retirement
      plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
      Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
      employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions
      between 1% and 10% of their gross pay, and the Fund will match up to 5% of the employees’ gross pay.
      In 2001 and 2000, the Fund’s contributions to the plans were approximately $10,310,000 and $9,460,000,
      respectively, of which approximately $6,879,000 and $4,730,000 were reimbursed by NCUSIF,
      respectively.




-7-
      The Fund does not account for the assets of the above plans and does not have actuarial data with
      respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
      amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
      Disability Fund and are not allocated to individual employers.

7.    DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

      The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
      thousands):
                                                          December 31, 2001                December 31, 2000
                                                         Carrying     Fair                Carrying     Fair
                                                         Amount      Value                Amount      Value
        Cash and cash equivalents                        $ 15,880      $ 15,880          $ 9,923        $ 9,923
        Due from NCUSIF                                     1,723         1,723              938            938
        Employee advances                                     529           529              663            663
        Other accounts receivable                              93            93              153            153
        Accounts payable                                    5,395         5,395            3,621          3,621
        Obligation under capital lease                      2,285         2,285            3,860          3,860
        Notes payable to NCUSIF                            30,335        30,335           31,748         31,748

8.    CONTINGENCIES

      NCUA is currently party to a number of other disputes that involve or may involve litigation. In the
      opinion of management, the ultimate liability with respect to these disputes, if any, will not be material to
      NCUA’s financial position.

                                                 * * * * * *




-8-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

Financial Statements for the Years Ended
December 31, 2001 and 2000, and
Independent Auditors' Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2001 AND 2000         1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2001 AND 2000:

   Balance Sheets                                        2

   Statements of Operations                              3

   Statements of Fund Balance                            4

   Statements of Cash Flows                              5

   Notes to Financial Statements                       6-13

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING BASED
  UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                         14




7161 – 11\01
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund as of
December 31, 2001 and 2000, and the related statements of operations, fund balance and cash flows for the
years then ended. These financial statements are the responsibility of the National Credit Union Share
Insurance Fund’s management. Our responsibility is to express an opinion on these financial statements based
on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Share Insurance Fund as of December 31, 2001 and 2000, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 22,
2002, on our tests of the National Credit Union Share Insurance Fund’s compliance with certain provisions of
laws, regulations, contracts, and grants, and our consideration of its internal control over financial reporting.
That report is an integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.



February 22, 2002
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


ASSETS                                                                    2001            2000

  Investments (Note 6)                                              $ 3,648,578     $ 3,482,730
  Cash and cash equivalents                                           1,335,753       1,098,005
  Accrued interest receivable                                            67,178          69,261
  Assets acquired in assistance to insured credit unions                 10,437           9,074
  Capital notes advanced to insured credit unions                         2,000             146
  Notes receivable - National Credit Union
     Administration Operating Fund (Note 8)                               30,335          31,748
  Other notes receivable and advances                                        173             112
  Fixed assets - net of accumulated depreciation
    and amortization (Note 3)                                               1,029          1,796

TOTAL ASSETS                                                        $ 5,095,483     $ 4,692,872


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Estimated losses from supervised credit unions (Note 4)           $     51,023    $     55,759
  Amounts due to insured shareholders of liquidated credit unions          6,092           7,094
  Due to National Credit Union Administration
    Operating Fund (Note 8)                                                 1,723            938
  Accounts payable                                                             64              7
  Obligations under capital leases (Note 9)                                   793          1,374

              Total liabilities                                           59,695          65,172

FUND BALANCE:
  Insured credit unions' accumulated contributions                      3,812,459       3,468,932
  Insurance fund balance                                                1,223,329       1,158,768

              Total fund balance                                        5,035,788       4,627,700

TOTAL LIABILITIES AND FUND BALANCE                                  $ 5,095,483     $ 4,692,872


See notes to financial statements.




-2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


                                               2001        2000

REVENUES:
  Interest                                   $ 252,853   $ 268,169
  Other                                          1,703       1,952

              Total revenues                  254,556     270,121

EXPENSES (Note 8):
  Administrative expenses:
    Employee wages and benefits                66,692      47,054
    Travel                                      8,111       6,950
    Rent, communications, and utilities         2,457       1,671
    Contracted services                         3,910       2,744
    Other                                       9,335       7,478

              Total expenses                   90,505      65,897

EXCESS OF REVENUES OVER EXPENSES             $ 164,051   $ 204,224


See notes to financial statements.




-3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)

                                                Insured
                                             Credit Unions'   Insurance
                                             Accumulated        Fund
                                             Contributions     Balance

BALANCE AT JANUARY 1, 2000                    $ 3,215,634     $ 954,544

  Contributions from insured credit unions       253,298             -

  Excess of revenues over expenses                   -           204,224

BALANCE AT DECEMBER 31, 2000                   3,468,932       1,158,768

  Contributions from insured credit unions       343,527             -

  Excess of revenues over expenses                   -           164,051

  Dividends to insured credit unions                 -           (99,490)

BALANCE AT DECEMBER 31, 2001                  $ 3,812,459     $ 1,223,329


See notes to financial statements.




-4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)

                                                                             2001          2000

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenues over expenses                                        $ 164,051     $ 204,224
 Adjustments to reconcile excess of revenues over
    expenses to cash provided by operating activities:
    Depreciation and amortization                                                767           507
    Reserves (recoveries) relating to losses from supervised
       credit unions - net                                                    (4,736)      (14,961)
    (Increase) decrease in assets:
       Accrued interest receivable                                             2,083       (30,447)
      Assets acquired in assistance to insured credit unions, net             (1,363)          869
       Capital notes advanced to insured credit unions, net                   (1,854)          179
       Other notes receivable and advances                                       (61)        1,808
    (Decrease) increase in liabilities:
       Amounts due to National Credit Union
         Administration Operating Fund                                           785          (680)
       Amounts due to insured shareholders of liquidated credit unions        (1,002)       (1,840)
       Accounts payable                                                           57           (42)

              Net cash provided by operating activities                      158,727       159,617

CASH FLOWS FROM INVESTING ACTIVITIES
  Purchase of investments, net                                              (165,848)     (995,369)
 Collections on note receivable - National Credit
    Union Administration Operating Fund                                        1,413         1,413
  Purchase of fixed assets                                                        -           (522)

              Net cash used in investing activities                         (164,435)     (994,478)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                    343,527       253,298
 Dividends to insured credit unions                                          (99,490)           -
  Principal payments under capital lease obligation                             (581)         (407)

              Net cash provided by financing activities                      243,456       252,891

NET INCREASE (DECREASE) IN CASH AND CASH
 EQUIVALENTS                                                                 237,748      (581,970)

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                               1,098,005     1,679,975

CASH AND CASH EQUIVALENTS, END OF YEAR                                    $ 1,335,753   $ 1,098,005


SUPPLEMENTAL DISCLOSURES OF NONCASH
  FINANCING ACTIVITIES:
    Capital lease obligations of $1,781 (thousands) were incurred when the Fund
    entered into leases for new equipment during the year ended December 31, 2000.


See notes to financial statements.



-5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2001 AND 2000


1.    ORGANIZATION AND PURPOSE

      The National Credit Union Share Insurance Fund (the Fund) was created by the Public Law 91-468
      (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369. The Fund
      was established as a revolving fund in the United States Treasury under the management of the National
      Credit Union Administration (NCUA) Board for the purpose of insuring member share deposits in all
      federal credit unions and in qualifying state credit unions that request insurance. The maximum amount
      of insurance is $100,000 per shareholder account.

      NCUA exercises direct supervisory authority over federal credit unions and coordinates required
      supervisory involvement with the state chartering authority for state-chartered credit unions insured by
      the Fund. Insured credit unions are required to report certain financial and statistical information to
      NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
      periodic examination by NCUA. Information derived through the supervisory and examination process
      provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
      require assistance from the Fund.

      Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
      if these difficulties are considered by the Fund to be temporary or correctable. This special assistance
      may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash
      assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a merger
      partner may be sought. If the assistance or merger alternatives are not practical, the credit union is
      liquidated.

      The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
      union is permitted to cease making additions to its regular reserve and, in more severe cases, to
      commence charging operating losses against its regular reserve. When all reserves have been depleted
      by the credit union, the fund may provide a reserve guarantee account in the amount of the reserve
      deficit. In addition, the Fund may provide cash assistance in the form of share deposits and capital notes,
      or may purchase assets from the credit union.

      Mergers of financially troubled credit unions with stronger credit unions may also require Fund
      assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
      Fund, and/or guarantees of the values of certain assets (primarily loans).

      When a credit union is no longer able to continue operating and the merger and assistance alternatives
      are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
      up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
      guaranteed to third-party purchasers by the Fund.




-6-
2.    SIGNIFICANT ACCOUNTING POLICIES

      Cash Equivalents and Investments - Title II of the Federal Credit Union Act limits the Fund’s
      investments to United States Government securities or securities guaranteed as to both principal and
      interest by the United States Government. Cash equivalents are highly liquid investments with original
      maturities of three months or less. All investments are classified as held-to-maturity under Statement of
      Financial Standards No. 115, “Accounting for Certain Investments in Debt and Equity Securities.”
      Accordingly, the Fund records investments at amortized cost.

      Depreciation and Amortization - Furniture and equipment and capital leases are recorded at cost.
      Depreciation and amortization are computed by the straight-line method over the estimated useful lives of
      the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
      Estimated useful lives are three years for the furniture and equipment and capital leases.

      Advances to Insured Credit Unions - The Fund provides cash assistance in the form of interest and
      non-interest-bearing capital notes (carried at face value), share deposits, and loans to certain credit
      unions to assist them in continuing their operations.

      Assets Acquired from Credit Unions - The Fund acquires the assets of liquidating credit unions pending
      their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
      union assets. In addition, the Fund may provide cash assistance by acquiring non-performing assets of a
      credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
      Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated
      net realizable value.

      Premium Revenue - The Fund may assess each insured credit union a premium charge for insurance in
      an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
      insurance year if the Fund’s equity ratio is less than 1.3%. The NCUA Board waived the 2001 and 2000
      share insurance premiums (see Note 5).

      Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
      Revenue Code.

      Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

      a.   Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate
           fair values.

      b.   Investments - The fair value for investments is the quoted market value.

      c.   Capital Notes and Other Notes Receivable - It is not practicable to estimate the fair value of
           these assets as there is no secondary market, and the Fund has the ability and the intention to hold
           these notes to maturity.

      d.   Other - Accrued interest receivable, notes receivable from NCUA Operating Fund, payable to
           NCUA Operating Fund, lease obligations, due to insured shareholders of liquidated credit unions and
           other accounts payable are recorded at book values, which approximate the respective fair values.



-7-
      Use of Estimates - The preparation of financial statements in conformity with accounting principles
      generally accepted in the United States of America requires management to make estimates and
      assumptions, particularly the estimated losses from supervised credit unions, that affect the reported
      amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
      financial statements and the reported amounts of revenues and expenses during the reporting period.
      Actual results could differ from management’s estimates.

      Reclassifications - Certain reclassifications have been made to the prior year’s financial statements in
      order to conform to the current presentation.

3.    FIXED ASSETS

      Fixed assets are comprised of the following (in thousands):

                                                                                               December 31,
                                                                                              2001      2000
        Furniture and equipment                                                             $ 522        $ 522
        Capital leases                                                                       1,781        1,781
                      Total                                                                  2,303         2,303
        Less: Accumulated depreciation and amortization                                      (1,274)        (507)
               Total fixed assets - net                                                     $ 1,029      $ 1,796

      Accumulated amortization balances for capital leases as of December 31, 2001 and 2000 were
      $1,038,000 and $445,000, respectively.

4.    PROVISION FOR INSURANCE LOSSES

      Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory and
      examination process. The estimated losses from these supervised credit unions are determined by
      management on a specified case basis. Management also evaluates overall economic trends and
      monitors potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies, and
      delinquencies. Non-specified case reserve requirements are determined based upon an assessment of
      insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from the
      disposition of the assets of failed credit unions.

      Total insurance in force as of December 31, 2001 and 2000, is $404 billion and $355 billion, respectively,
      which includes natural person and corporate credit unions. The total net reserves for identified and
      anticipated losses from supervised credit unions’ failures is $51 million and $56 million at December 31,
      2001 and 2000, respectively. Should there be no recoveries provided during the resolution process,
      possible additional reserves for $27 and $27.3 million would be required as of December 31, 2001 and
      2000, respectively.

      In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
      loans) to third-party purchasers or to credit unions to facilitate mergers. Such guarantees totaled
      approximately $2,217,000 and $2,362,000 at December 31, 2001 and 2000, respectively. The estimated
      losses from asset and merger guarantees are determined by management on a case-by-case evaluation.




-8-
      In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider, such as a
      corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the
      credit provider has refused to extend credit without a guarantee. Total line-of-credit guarantees of credit
      unions at December 31, 2001 and 2000, are approximately $200,000 and $5,945,000, respectively. The
      total balances outstanding under these line-of-credit guarantees at December 31, 2001 and 2000, are
      approximately $77,000 and $1,674,000, respectively.

      The activity in the reserves for estimated losses from supervised credit unions was as follows (in
      thousands):

                                                                                           Year Ended
                                                                                          December 31,
                                                                                        2001        2000

            BEGINNING BALANCE                                                        $ 55,759       $ 70,720

             Insurance losses                                                           (9,204)       (19,774)
             Recoveries                                                                  4,468          4,813

            ENDING BALANCE                                                           $ 51,023       $ 55,759

5.    FUND CAPITALIZATION

      The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the Fund’s
      capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
      with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
      each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
      determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
      the case of an insured credit union with total assets of not more than $50,000,000; and (ii) semiannually,
      in the case of an insured credit union with total assets of $50,000,000 or more. The annual and
      semiannual adjustments are based on member share deposits outstanding as of December 31 of the
      preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to the
      insured credit union in the event that its insurance coverage is terminated, or is obtained from another
      source, or the operations of the Fund are transferred from the NCUA Board.

      The CUMAA mandates certain premium charges from insured credit unions and distributions from the
      Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
      equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions
      to insured credit unions after each calendar year are required if, as of year-end:

      (i)    Any loans to the Fund from the Federal Government, and any interest on those loans, have been
             repaid;

      (ii)   The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
             ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
             and

      (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.




-9-
     The NCUA Board has determined that the normal operating level is 1.30% at December 31, 2001 and
     2000. The calculated equity ratio at December 31, 2001 was 1.25%. The equity ratio at December 31,
     2000, was 1.33%, which considered an estimated $31.9 million in deposit adjustments billed to insured
     credit unions in 2001 based upon total insured shares as of December 31, 2000. Subsequently, such
     deposits adjustments were excluded and the calculated equity ratio at December 31, 2000 was revised to
     1.30%.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
     based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares at
     year-end are declared and paid in the subsequent year.

     The NCUA Board declared that no dividends were payable on insured shares as of December 31, 2001,
     because the equity ratio, 1.25%, was below the normal operating level, 1.30%. Dividends of $99,490,000,
     which were associated with insured shares as of December 31, 2000, were declared and paid in 2001.
     Total insured shares as of December 31, 2001 and 2000, were $404 billion and $355 billion, respectively.

6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.

     Investments consist of the following (in thousands):

                                                               December 31, 2001
                                        Yield to                   Gross        Gross               Estimated
                                       Maturity      Amortized   Unrealized Unrealized               Market
                                       at Market       Cost        Gains       Losses                 Value

         U.S. TREASURY
           SECURITIES:
           Maturities up to one year      5.56 % $ 1,515,063         $ 30,843       $     -        $ 1,545,906
           Maturities after one year
              through five years          5.10 %     2,133,515           73,017           -          2,206,532

                      Total                        $ 3,648,578       $ 103,860      $     -        $ 3,752,438

                                                               December 31, 2000
                                        Yield to                   Gross        Gross               Estimated
                                       Maturity      Amortized   Unrealized Unrealized               Market
                                       at Market       Cost        Gains       Losses                 Value

         U.S. TREASURY
           SECURITIES:
           Maturities up to one year      6.28 % $ 1,098,748         $    3,565     $     -        $ 1,102,313
           Maturities after one year
              through five years          6.07 %     2,383,982           36,393           -          2,420,375

                      Total                        $ 3,482,730       $ 39,958       $     -        $ 3,522,688

     Total investment purchases during 2001 and 2000 were approximately $1.2 billion and $1.9 billion,
     respectively. Investment maturities during 2001 and 2000 were approximately $1.1 billion and $0.9


- 10 -
     billion, respectively. The Fund has the capability and management has the intention to hold all
     investments held at December 31, 2001 and 2000, to maturity. There were no investment sales during
     2001 and 2000.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The CLF is
     authorized to make advances to the Fund under terms and conditions established by the NCUA Board.
     No borrowings were obtained from these sources during 2001 and 2000.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board derived from a study of actual usage conducted by the management of these Funds. The
     allocation factors were 66.72% and 50% to the Fund for 2001 and 2000, respectively. The cost of
     services provided by the NCUA Operating Fund was approximately $88,508,000 and $63,780,000 for
     2001 and 2000, respectively, and includes pension contributions of approximately $6,879,000 and
     $4,730,000 to the Civil Service Retirement System and Federal Employees Retirement System defined
     benefit retirement plans for 2001 and 2000, respectively.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
     Fund. Interest received was approximately $66,000 for 2001 and $76,000 for 2000. The note receivable
     balance at December 31, 2001 and 2000, was approximately $1,170,000 and $1,242,000, respectively.

     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund
     as needed to fund the costs of constructing a new building. Interest income was approximately
     $1,629,000 and $1,857,000 for 2001 and 2000, respectively. The note receivable balance at
     December 31, 2001 and 2000, was approximately $29,165,000 and $30,506,000, respectively.

     The above notes mature as follows (in thousands):

                                                                    Term Note     Term Note       Total
         2002                                                        $    72      $ 1,341       $ 1,413
         2003                                                             72        1,341         1,413
         2004                                                             72        1,341         1,413
         2005                                                             72        1,341         1,413
         2006                                                             72        1,341         1,413
         Thereafter                                                      810       22,460        23,270
                      Total                                          $ 1,170      $ 29,165      $ 30,335




- 11 -
     The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The
     average interest rates during 2001 and 2000 were approximately 5.47% and 5.95%, respectively. At
     December 31, 2001 and 2000, the rates were 4.56% and 6.05%, respectively.

     The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
     that expire through 2004. Based on the allocation factor determined as determined by the NCUA’s
     Board, the Fund reimburses the NCUA Operating Fund approximately 66.72% of the total lease
     payments. The cost of services provided by the NCUA Operating Fund includes rental charges of
     approximately $654,500 and $406,500 for 2001 and 2000, respectively.

     The NCUA Operating Fund’s total future minimum lease payments on operating leases as of
     December 31, 2001, are as follows (in thousands):

                                     2002                          $ 972
                                     2003                            439
                                     2004                            326

                                     Total                         $ 1,737

9.   LEASE COMMITMENTS

     Description of Leasing Agreements - The Fund has entered into lease agreements with vendors for the
     lease of equipment that includes computers, laptops, and printers.

     Capital Leases - The Fund leases computer equipment under lease agreements that expire through
     2003.

     The following is a schedule of future minimum lease payments as of December 31, 2001, are as follows
     (in thousands):

         2002                                                                                  $ 659
         2003                                                                                    164
         Total                                                                                   823
         Less: Imputed interest                                                                  (30)
         Present value of net mimimum lease payments                                           $ 793




- 12 -
10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:

                                                December 31, 2001                     December 31, 2000
                                              Carrying        Fair                  Carrying        Fair
                                              Amount         Value                  Amount         Value
         Investments                        $ 3,648,578      $ 3,752,438          $ 3,482,730       $ 3,522,688
         Cash and cash equivalents            1,335,753        1,335,753            1,098,005         1,098,005
         Accrued interest receivable             67,178           67,178               69,261            69,261
         Notes receivable - NCUA
           Operating Fund                        30,335           30,335               31,748            31,748
         Amounts due to insured
           shareholders of liquidated
           credit unions                          6,092             6,092                7,094            7,094
         Due to NCUA Operating Fund               1,723             1,723                  938              938
         Accounts payable                            64                64                    7                7
         Lease obligation                           793               793                1,374            1,374

11. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the United States.
     Concentrations of member shares do exist within the manufacturing, governmental, and educational
     industries.

12. CONTINGENCIES

     NCUA is currently party to a number of other disputes that involve or may involve litigation. In the
     opinion of management, the ultimate liability with respect to these disputes, if any, will not be material to
     NCUA’s financial position.

                                                * * * * * *




- 13 -
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

Financial Statements for the Years
Ended December 31, 2001 and 2000, and
Independent Auditors’ Reports




- 14 -
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2001 AND 2000                1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2001 AND 2000:

   Balance Sheets                                               2

   Statements of Operations                                     3

   Statements of Members’ Equity                                4

   Statements of Cash Flows                                     5

   Notes to Financial Statements                               6-9


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS    10




7159 – 11\01
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2001 and 2000, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 2001 and 2000, and the
results of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 22,
2002, on our tests of the National Credit Union Administration Central Liquidity Facility’s compliance with
certain provisions of laws, regulations, contracts, and grants and on our consideration of its internal control
over financial reporting. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results of our audit.



February 22, 2002
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


ASSETS                                          2001          2000

  Cash                                     $       13    $       14
  Investments with U.S. Central Credit
    Union (Notes 5, 8, and 9)                  979,922       919,509
  Accrued interest receivable                    5,095        12,968

TOTAL ASSETS                               $ 985,030     $ 932,491


LIABILITIES AND MEMBERS' EQUITY

LIABILITIES:
  Member deposits (Note 7)                 $ 16,817      $ 28,807
  Accounts payable and other liabilities        102           107

              Total liabilities                 16,919        28,914

MEMBERS' EQUITY:
 Capital stock - required (Note 7)             956,709       892,175
 Retained earnings                              11,402        11,402

              Total members' equity            968,111       903,577

TOTAL LIABILITIES AND MEMBERS' EQUITY      $ 985,030     $ 932,491


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)


                                              2001       2000

REVENUE - Investment income                 $ 35,012   $ 58,460

EXPENSES (Note 10):
  Operating expenses:
    Group agent service fee                       2          2
    Personnel services                          110        123
    Other services                               37         39
    Rent, communications, and utilities           8          9
    Personnel benefits                           23         33
    Supplies and materials                        2          5
    Printing and reproduction                     3          4

              Total operating expenses          185        215

  Interest - Federal Financing Bank notes        46      1,743
  Interest - member deposits                    212        676

              Total expenses                    443      2,634

EXCESS OF REVENUE OVER EXPENSES             $ 34,569   $ 55,826


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS' EQUITY
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)

                                          Capital     Retained
                                          Stock       Earnings

BALANCE AT JANUARY 1, 2000               $ 880,953    $ 11,464

  Issuance of required capital stock       16,657         -

  Redemption of required capital stock      (5,435)       -

  Dividends                                   -        (55,888)

  Excess of revenue over expenses             -         55,826

BALANCE AT DECEMBER 31, 2000              892,175       11,402

  Issuance of required capital stock       69,600

  Redemption of required capital stock      (5,066)

  Dividends                                   -        (34,569)

  Excess of revenue over expenses             -         34,569

BALANCE AT DECEMBER 31, 2001             $ 956,709    $ 11,402


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2001 AND 2000
(Dollars in Thousands)

                                                                         2001           2000

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenue over expenses                                   $ 34,569       $    55,826
 Adjustments to reconcile excess of revenue over expenses
    to net cash provided by operating activities:
    Decrease in accrued interest receivable                               7,873          3,468
    Decrease in accounts payable and other liabilities                       (5)          (624)

              Net cash provided by operating activities                 42,437          58,670

CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchase of investments, net                                          (60,413)        (9,625)
 Loan principal repayment                                                  -            58,600

              Net cash (used in) provided by investing activities       (60,413)        48,975

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                             2,790         3,426
 Issuance of required capital stock                                      69,600        16,657
 Dividends                                                              (34,569)      (55,888)
 Withdrawal of member deposits                                          (14,780)       (2,639)
  Redemption of required capital stock                                   (5,066)       (5,435)
  Repayment of Federal Financing Bank notes                                 -      (1,041,000)

             Net cash provided by (used in) financing activities        17,975     (1,084,879)

NET DECREASE IN CASH                                                         (1)       (977,234)

CASH, BEGINNING OF YEAR                                                     14         977,248

CASH, END OF YEAR                                                   $       13     $        14


SUPPLEMENTAL DISCLOSURE OF CASH
  FLOW INFORMATION:
  Interest paid during the years ended December 31, 2001 and
  2000 was $46 and $2,396 (thousands), respectively


See notes to financial statements.


-5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2001 AND 2000


1.    ORGANIZATION AND PURPOSE

      The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
      Credit Union Central Liquidity Facility Act (the Act). The CLF is designated as a mixed-ownership
      government corporation under the Government Corporation Control Act. The CLF exists within the
      National Credit Union Administration (NCUA) and is managed by the National Credit Union
      Administration Board. The CLF became operational on October 1, 1979.

      The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
      unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.    SIGNIFICANT ACCOUNTING POLICIES

      Basis of Accounting - The CLF maintains its accounting records on the accrual basis of accounting.

      Loans and Allowance for Loan Losses – Loans, when made to members, are on a short-term or long-
      term basis. For all loans, the CLF may obtain a security interest in the assets of the borrower. In
      determining the allowance for loan losses, when applicable, the CLF evaluates the collectibility of its
      loans to members through examination of the financial condition of the individual borrowing credit unions
      and the credit union industry in general.

      Investments - The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see
      Notes 5 and 8). All other investments are short-term with no maturities in excess of one year. All
      investments are classified as held-to-maturity under Statement of Financial Accounting Standards
      No. 115, “Accounting for Certain Investments in Debt and Equity Securities.” Accordingly, the CLF
      records investments at amortized cost.

      Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

      a.   Cash - The carrying amounts for cash approximate fair value.

      b.   Investments - Securities held have maturities of one year or less and, as such, the carrying amounts
           approximate fair value.

      c.   Loans - For loans advanced to member credit unions, the carrying amounts approximate fair value.

      d.   Member Deposits - Funds maintained with the CLF in excess of required capital amounts are
           recorded as member deposits. These deposits are due upon demand and the carrying amounts
           approximate the fair value.



-6-
      e.     FFB Notes Payable - For notes issued to the Federal Financing Bank, when applicable, the
             carrying amounts approximate fair value.

      f.     Other - Accrued interest receivable and accounts payable and other liabilities are recorded at book
             values, which approximate the respective fair values.

      Use of Estimates - The preparation of financial statements in conformity with accounting principles
      generally accepted in the United States of America requires management to make estimates and
      assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
      and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
      during the reporting period. Actual results could differ from management’s estimates.

3.    GOVERNMENT REGULATIONS

      The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
      Congressional approval and the CLF may not make loans to members for the purpose of expanding
      credit union loan portfolios. The CLF’s investments are restricted to obligations of the United States
      Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
      in credit unions. Borrowing is limited by statute to twelve times the subscribed capital stock and surplus.
      However, there is a Congressional limitation of $1.5 billion on funds that are borrowed and then loaned
      out at any one point in time.

      At December 31, 2001 and 2000, the CLF was in compliance with its borrowing authority.

4.    LOANS TO MEMBERS

      There were no loans or loan commitments outstanding at December 31, 2001 and 2000. The CLF can
      provide members with extended loan commitments.

5.    FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

      Funds not currently required for operations are invested as follows (in thousands):

                                                                                          December 31,
                                                                                        2001        2000
           U.S. Central Credit Union (see Note 8):
             Redeposit Account                                                       $ 915,246      $ 849,810
             Share accounts                                                             64,676         69,699
                                                                                     $ 979,922      $ 919,509

6.    BORROWING AUTHORITY

      The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the event
      that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the liquidity
      needs of credit unions. This authority to lend is limited to such extent and in such amounts as are
      provided in advance by Congressional Appropriation Acts. On December 23, 1981, the President signed
      PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may be provided
      by the Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit unions. On
      May 21, 1999, the President signed a midyear spending bill (HR 1141) that authorized the CLF to fully

-7-
      utilize its borrowing authority under the Federal Credit Union Act. Borrowings would be from the
      Federal Financing Bank with interest generally payable upon maturity. See Note 12.

7.    CAPITAL STOCK AND MEMBER DEPOSITS

      The required capital stock account represents subscriptions remitted to the CLF by member credit
      unions. Regular members’ required subscription amounts equal one-half of one percent of their paid-in
      and unimpaired capital and surplus, one-half of which amount is required to be remitted to the CLF.
      Agent members’ required subscription amounts equal one-half of one percent of the paid-in and
      unimpaired capital and surplus of all of the credit unions served by the agent member, one-half of which
      is required to be remitted to the CLF. In both cases, the remaining one-half of the subscription is
      required to be held in liquid assets by the member credit unions subject to call by the National Credit
      Union Administration Board. These unremitted subscriptions are not reflected in the CLF’s financial
      statements. Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in
      and unimpaired capital and surplus. Dividends are declared and paid on required capital stock.

      Member deposits represent amounts remitted by members over and above the amount required for
      membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
      required capital stock.

8.    U.S. CENTRAL CREDIT UNION MEMBERSHIP

      During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union (USC)
      on behalf of its corporate credit union members. At December 31, 2001 and 2000, $915,246,000 and
      $849,810,000, respectively, of the required portion of subscribed capital stock were purchased from the
      CLF by USC on behalf of its member credit unions. The CLF has 33 corporate credit union members as
      of December 31, 2001 and 2000.

      In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all but
      $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996, the
      CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
      2001 and 2000, approximately $979,922,000 and $919,509,000, respectively, were invested in USC share
      accounts at 2.06% and 5.92%, respective yields.

9.    CONCENTRATION OF CREDIT RISK

      At December 31, 2001 and 2000, the CLF has a concentration of credit risk for its investments on
      deposit with USC of approximately $979,922,000 and $919,509,000 (see Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

      The National Credit Union Administration provides the CLF with data processing and other
      miscellaneous services and supplies. In addition, the National Credit Union Administration pays CLF’s
      employees’ salaries and benefits as well as the CLF’s portion of monthly building operating costs. The
      CLF reimburses the National Credit Union Administration on a monthly basis for these items. Total
      reimbursements for the years ended December 31, 2001 and 2000, amounted to approximately $183,000
      and $213,000, respectively.



-8-
11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

      The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
      thousands):

                                                  December 31, 2001                 December 31, 2000
                                                Carrying      Fair                Carrying        Fair
                                                Amount       Value                Amount         Value

     Cash                        $      13 $      13                          $         14     $        14
     Investments                   979,922   979,922                               919,509         919,509
     Accrued interest receivable     5,095     5,095                                12,968          12,968
     Member deposits                16,817    16,817                                28,807          28,807
     Accounts payable and
       other liabilities               102       102                                  107              107
12. SHORT–TERM REVOLVING CREDIT FACILITY

      One April 23, 2001, the National Credit Union Administration signed a short-term revolving credit facility
      promissory note with the Federal Financing Bank (FFB) on behalf of the CLF. The note is entitled to the
      benefits and subject to the requirements of the note purchase agreement executed on July 15, 1999. The
      short-term revolving credit facility promissory note provides for a commitment amount of $5.0 billion and
      expires on March 31, 2002.

      On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
      Federal Financing Bank (FFB) on behalf of the CLF. The agreement provided for a commitment amount
      of $20.7 billion and expired on September 30, 2000. Under this agreement, the CLF could request
      advances from FFB on an anticipatory basis in order to meet possible extraordinary and unpredictable
      liquidity-need loan demands from member natural person credit unions resulting from the century date
      change conversion.

                                               * * * * * *




-9-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING
LOAN FUND

Financial Statements for the Years Ended
December 31, 2001 and 2000, and
Independent Auditors' Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2001 AND 2000                1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2001 AND 2000:

   Balance Sheets                                               2

   Statements of Operations                                     3

   Statements of Changes in Fund Balance                        4

   Statements of Cash Flows                                     5

   Notes to Financial Statements                                6-9

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS    10




7160 – 11/01
INDEPENDENT AUDITORS' REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of December 31, 2001 and 2000, and the related statements
of operations, changes in fund balance, and cash flows for the years then ended. These financial statements
are the responsibility of the CDRLF’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Fund as of December 31,
2001 and 2000, and the results of its operations and its cash flows for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 22,
2002, on our tests of the National Credit Union Administration Community Development Revolving Loan
Fund’s compliance with certain provisions of laws, regulations, contracts, and grants and on our consideration
of its internal control over financial reporting. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




February 22, 2002
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
DECEMBER 31, 2001 AND 2000

ASSETS                                       2001             2000

  Cash and cash equivalents (Note 2)   $ 4,857,810      $ 1,208,609
  Loans - net of allowance (Note 4)      8,839,573       10,431,985
  Interest receivable                       56,353           83,000

TOTAL ASSETS                           $ 13,753,736     $ 11,723,594


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accrued technical assistance         $     196,400    $     104,371

              Total liabilities              196,400          104,371

FUND BALANCE:
  Revolving fund capital (Note 3)          12,745,669       10,996,200
  Accumulated earnings                        811,667          623,023

              Total fund balance           13,557,336       11,619,223

TOTAL LIABILITIES AND FUND BALANCE     $ 13,753,736     $ 11,723,594


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2001 AND 2000

                                            2001        2000

SUPPORT AND REVENUES:
  Interest on cash equivalents           $ 64,431     $ 82,274
  Interest on loans                       236,966      228,745
  Provision for loan losses                (47,514)     (21,911)
  Appropriation revenue                   248,531            -

              Total                        502,414      289,108

EXPENSES:
  Technical assistance                    (313,770)    (270,868)

              Total                       (313,770)    (270,868)

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                           $ 188,644    $ 18,240


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2001 AND 2000

                                                          2001           2000

FUND BALANCE, BEGINNING OF YEAR                       $ 11,619,223   $11,600,983

   Change in unexpended appropriations:
    Operating appropriations received (Note 3)            700,000            -
    Appropriation revenue recognized (Note 3)            (248,531)           -

   Appropriations - revolving fund capital (Note 3)     1,298,000            -

  Excess of support and revenues over expenses            188,644         18,240

FUND BALANCE, END OF YEAR                             $ 13,557,336   $ 11,619,223


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2001 AND 2000

                                                                         2001              2000

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of support and revenues over expenses                     $     188,644     $      18,240
 Adjustments to reconcile the excess of support
    and revenues over expenses to net cash
    provided by (used in) operating activities:
    Change in unexpended appropriations                                  451,469               -
    Provision for loan losses                                             47,514            21,911
    Changes in assets and liabilities:
      Decrease (increase) in interest receivable                          26,647           (30,185)
      Increase (decrease) in accrued technical assistance                 92,029           (11,726)

             Net cash provided by (used in) operating activities         806,303            (1,760)

CASH FLOWS FROM INVESTING ACTIVITIES:
  Loan principal repayments                                             3,951,898         2,178,151
  Loan disbursements                                                   (2,407,000)       (5,288,000)

             Net cash provided by (used in) investing activities       1,544,898         (3,109,849)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received - revolving fund capital                      1,298,000               -

              Net cash provided by financing activities                1,298,000               -

NET INCREASE (DECREASE) IN CASH AND
  CASH EQUIVALENTS                                                     3,649,201         (3,111,609)

CASH AND CASH EQUIVALENTS,
 BEGINNING OF YEAR                                                     1,208,609         4,320,218

CASH AND CASH EQUIVALENTS, END OF YEAR                             $ 4,857,810       $ 1,208,609


See notes to financial statements.




-5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2001 AND 2000


1.    NATURE OF ORGANIZATION

      The Community Development Revolving Loan Fund for Credit Unions (CDRLF) was established by an
      act of Congress (Public Law 96-124, November 20, 1979) to stimulate economic development in
      low-income communities. The National Credit Union Administration (NCUA) and the Community
      Services Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations, governing
      administration of the Fund, on February 28, 1980.

      Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the Department of
      Health and Human Services (HHS). Because HHS never promulgated final regulations governing the
      administration of the CDRLF, the Fund was dormant.

      The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
      transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
      of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
      participating credit unions in 1990.

      The purpose of the CDRLF is to stimulate economic activities in the communities served by low-income
      credit unions which will result in increased income, ownership and employment opportunities for low-
      wealth residents and other economic growth. The policy of NCUA is to revolve the loans to qualifying
      credit unions as often as practical in order to gain maximum impact on as many participating credit unions
      as possible.

2.    SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

      Basis of Accounting - The CDRLF reports its financial statements on the accrual basis of accounting.

      Cash Equivalents - The Federal Credit Union Act permits the CDRLF to make investments in United
      States Government Treasury securities. All investments in 2001 and 2000 were cash equivalents and are
      stated at cost which approximates market. Cash equivalents are highly liquid investments with original
      maturities of three months or less.

      Allowance for Loan Losses - The CDRLF records a provision for estimated loan losses. Loans
      considered to be uncollectible are charged to the allowance for loan losses. Management continually
      evaluates the adequacy of the allowance for loan losses based upon prevailing circumstances and an
      assessment of collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-
      performing loans when management believes collectibility is doubtful. At December 31, 2001 and 2000,
      there were no nonaccrual loans.




-6-
      Salary and Operating Expenses - NCUA provides certain general and administrative support to the
      CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is
      not charged to the CDRLF.

      Revenue Recognition - Appropriation revenue is recognized as the related technical assistance expense
      is recognized. Total appropriation revenues will differ from total technical assistance expenses because
      not all technical assistance is funded by appropriations.

      Use of Estimates - The preparation of financial statements in conformity with accounting principles
      generally accepted in the United States of America requires management to make estimates and
      assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
      and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
      during the reporting period. Actual results could differ from management's estimates.

3.    GOVERNMENT REGULATIONS

      The CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
      technical assistance, is limited by Congress to a total of the $12,745,669 appropriated for the CDRLF plus
      accumulated earnings. Included in this $12,745,669 is $1,998,000 that was made available in 2001 in
      accordance with Public Law 107-73 and 106-377 for loans and technical assistance. Federally chartered
      and state-chartered credit unions may participate in the CDRLF’s Community Loan Fund. Loans may
      be made to predominantly low-income credit unions as defined by the NCUA and are recorded in the
      participant's accounting records as nonmember deposits. As nonmember deposits, the NCUA Share
      Insurance Fund (NCUSIF) may insure these loans to participating credit unions in an amount not to
      exceed $100,000 per credit union. The covered amount of loans recorded as nonmember deposits by
      participating credit unions insured by the NCUSIF totaled approximately $5,943,000 and $6,227,000 at
      December 31, 2001 and 2000, respectively.

      Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between January 1,
      1995, and December 31, 1998, carry a fixed interest rate of 3%; and loans issued after January 1, 1999,
      carry a fixed rate of 2%. Interest and principal are repaid on a semiannual basis beginning six months and
      one year, respectively, after the initial distribution of the loan. The maximum term of each loan is five
      years. Participating credit unions are required to match the value of the loan within one year of the date of
      approval of the loan.

      During the year ended December 31, 2001, appropriations for loans and technical assistance in the amount
      of $1,998,000 were received. Of this amount, $700,000 was designated to be used as operating
      appropriations for technical assistance and $1,298,000 was designated to be used as revolving fund capital.
      For the appropriations received, all monies do not expire and are not required to be returned.

                                                                                 2001               2000

      Unexpended appropriations:
        Balance, beginning of the year                                      $        -         $        -
        Operational appropriations received                                      700,000                -
        Appropriation revenue recognized                                        (248,531)               -

         Balance, end of year                                               $    451,469       $        -



-7-
                                                                                 2001             2000

        Revolving fund capital:
          Balance, beginning of the year                                    $ 10,996,200     $ 10,996,200
          Appropriations - revolving fund capital                              1,298,000              -
          Change in unexpended appropriations                                    451,469              -

         Balance, end of year                                               $ 12,745,669     $ 10,996,200
4.    LOANS

      Loans outstanding at December 31, 2001 and 2000, are scheduled to be repaid during the following
      subsequent years:

                                                                                 2001             2000

            Year 1                                                           $ 2,605,900     $ 3,055,804
            Year 2                                                             2,125,100       2,605,900
            Year 3                                                             1,492,100       2,125,100
            Year 4                                                             1,353,800       1,492,100
            Year 5                                                             1,475,697       1,353,800

                                                                               9,052,597       10,632,704
            Less: Allowance for loan losses                                     (213,024)        (200,719)

           Net loans outstanding                                             $ 8,839,573     $ 10,431,985
      Changes in the allowance for loan losses are summarized below:

                                                                                  2001          2000
        Balance, beginning of year                                            $ 200,719      $ 178,808
        Provision for loan losses                                                47,514         21,911
        Loan losses                                                             (35,209)           -
        Balance, end of year                                                  $ 213,024      $ 200,719
5.    CONCENTRATION OF CREDIT RISK

      At December 31, 2001 and 2000, there are no significant concentrations of credit risk in the loan
      portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve predominantly
      low-income communities.

6.    ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

      The following disclosures of the estimated fair value of financial instruments are made in accordance
      with the requirements of Statement of Financial Accounting Standards No. 107, “Disclosures about Fair
      Value of Financial Instruments.” The methods and assumptions used in estimating the fair value
      disclosures for financial instruments are as follows:

      Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate fair
      values.




-8-
      Interest Receivable and Accrued Technical Assistance - Such items are recorded at book values,
      which approximate the respective fair values.

      Loans - The fair value is estimated by discounting projected future cash flows using current market
      interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus
      two percent (6.75% at December 31, 2001 and 11.5% at December 31, 2000).

      The carrying amount and the estimated fair value of the CDRLF's financial instruments are as follows:

                                                     December 31, 2001                 December 31, 2000
                                                    Carrying   Estimated              Carrying   Estimated
                                                    Amount     Fair Value             Amount     Fair Value

        Assets:
          Cash and cash equivalents             $ 4,857,810      $ 4,857,810      $ 1,208,609       $ 1,208,609

          Interest receivable                   $     56,353     $    56,353      $     83,000      $   83,000

          Loans                                 $ 9,052,597      $ 8,680,264      $ 10,632,704      $ 8,596,456
          Allowance for loan losses                (213,024)        (213,024)         (200,719)        (200,719)

          Loans, net of allowance               $ 8,839,573      $ 8,467,240      $ 10,431,985      $ 8,395,737

        Liabilities:
          Accrued technical assistance          $    196,400     $ 196,400        $    104,371      $ 104,371
      It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing the carrying
      amount in full. Fair value is less than carrying amount because loans are made at less than market
      interest rates.

                                                 * * * * *




-9-
- 10 -
